 
 
 
 
 
 
 
 
Office of Inspector General
 
 
October 21, 2013

MEMORANDUM

TO:                  USAID/Uganda Mission Director, Leslie Reed

FROM:                Regional Inspector General/Pretoria, Robert W. Mason /s/

SUBJECT:             Agreed-Upon Procedures Review of USAID Resources Managed by Inter-
                     Religious Council of Uganda Under Cooperative Agreement AID-617-A-10-00002
                     (Report No. 4-617-14-001-S)

This memorandum transmits our final report on the subject agreed-upon procedures review. In
finalizing the report we considered your comments and included them in Appendix II.

The report contained one recommendation to help improve activities implemented by the Inter-
Religious Council of Uganda with USAID funds. Based on management’s comments, we
acknowledge that a management decision has been made and final action taken on this
recommendation. Recommendation 1 is closed upon report issuance.

We have performed the procedures described in Appendix I, which were agreed to by the
Regional Inspector General/Pretoria (RIG/Pretoria) and USAID/Uganda to determine whether
the Inter-Religious Council of Uganda used the President’s Emergency Plan for AIDS Relief
(PEPFAR) funds to support Uganda’s Anti-Homosexuality Bill. The engagement was performed
in accordance with attestation standards established by the American Institute of Certified
Public Accountants and Government Auditing Standards by the Comptroller General. The
sufficiency of the procedures is solely the responsibility of RIG/Pretoria and USAID/Uganda.
Consequently, we make no representation regarding the sufficiency of the procedures described
in Appendix I either for the purpose of which this report has been requested or for any other.

We were not engaged to and did not perform an audit, the objective of which would be to
express an opinion on whether the Inter-Religious Council of Uganda used PEPFAR funds to
support Uganda’s Anti-Homosexuality Bill. Accordingly, we do not express such an opinion. Had
we performed additional procedures, other matters might have come to our attention that would
have been reported to you.

This report is intended solely for the use of RIG/Pretoria and USAID/Uganda. It should not be
used to draw broader conclusions by those who have not agreed to the procedures and taken
responsibility for sufficiency of the procedures for their purposes.
                                                                                                   

U.S. Agency for International Development
100 Totius Street
Groenkloof X5, 0181
Pretoria, South Africa
http://oig.usaid.gov/ 
 


I want to express my sincere appreciation for the courtesy extended to my staff.




                                                                                    
 



SUMMARY 

According to UNAIDS estimates, the HIV prevalence rate among adults in Uganda in 2011 was
7.2 percent—1.4 million people were living with HIV. To help the country prevent new infections
and care for those already infected or affected by the disease, the U.S. President’s Emergency
Plan for AIDS Relief (PEPFAR) funds programs in Uganda. They are awarded and managed by
U.S. Government agencies, such as USAID, and are implemented by their partners.

Since Uganda is a deeply religious country, faith-based organizations (FBOs) play a key role in
combatting HIV. According to a 2012 PEPFAR report, more than a third of clinical care in
Uganda is provided by FBOs, which also operate 40 percent of the hospitals there.1 In
December 2009 USAID/Uganda awarded Cooperative Agreement AID-617-A-10-00002 to the
Inter-Religious Council of Uganda (IRCU) that would run through December 2014 and provide
$30 million for a faith-based HIV/AIDS response in Uganda. IRCU brings together the Catholic
Church in Uganda, the Uganda Muslim Supreme Council, the Church of Uganda, the Uganda
Orthodox Church, and the Seventh-day Adventist Church Uganda Union to “promote peace,
reconciliation, good governance, and holistic human development through interfaith action and
collaboration, advocating for the empowerment of member bodies for the common good.” IRCU
is expected to focus on strengthening the overall faith-based HIV/AIDS response; facilitating
access to and utilization of quality, comprehensive HIV/AIDS prevention, care, and treatment
services for people living with HIV and their immediate families; and strengthening the role of
religious leaders in advocacy for reproductive health services and for people with or affected by
HIV/AIDS.

Meanwhile, a member of the Ugandan Parliament introduced a bill on September 25, 2009, that
would prohibit any form of sexual relations between people of the same sex, or promotion or
recognition of homosexuality as a healthy lifestyle in public institutions. The “Anti-Homosexuality
Bill” also proposed the death penalty as punishment for “serial offenders” and those living with
HIV. In addition, the bill sought to criminalize the failure of individuals, including health workers
and staff at civil society organizations, to report anyone they suspected of being homosexual to
authorities. As of May 2013, the Anti-Homosexuality Bill had not been brought for a
parliamentary vote. However, it is widely reported that the majority of Ugandans support the bill,
with many religious leaders lobbying for its passage.

Consistent with the First Amendment to the U.S. Constitution, USAID’s policy is to support the
religious expression of its partners, and per 22 Code of Federal Regulations 205.1(c), a
religious organization may continue to express its religious beliefs after it receives financial
assistance from USAID. However, Agency policy is also clear that “faith-based and community
organizations may not use direct financial assistance from USAID (or any other Federal agency)
to support inherently religious activities” and “Faith-based and community organizations may
not, in providing USAID-funded program assistance, discriminate for or against any actual or
potential beneficiary on the basis of religion or religious belief.” Accordingly, the IRCU award
contains statements to this effect.

                                                            
1
 A Firm Foundation: The PEPFAR Consultation on the Role of Faith-Based Organizations in Sustaining
Community and Country Leadership in the Response to HIV/AIDS, U.S. President’s Emergency Plan for
AIDS Relief and the Interfaith Health Program, Emory University, July 2012.


                                                                                                   1 
 


On the basis of these policies, outside groups have raised concerns that FBOs in Uganda, such
as IRCU, may have used U.S. Government funds to support the passage of the Anti-
Homosexuality Bill or discriminate on the basis of religious beliefs. To complement procedures
already conducted by USAID/Uganda—such as surveying civil society organizations regarding
discrimination—the Regional Inspector General/Pretoria (RIG/Pretoria) conducted agreed-upon
procedures to determine whether IRCU used PEPFAR funds to support the bill.

As part of the procedures:

	   We reviewed IRCU’s work with FBOs, and found that none of the annual work plans
     reviewed or interviews or surveys conducted indicated that IRCU was supporting the Anti-
     Homosexuality Bill through its support of FBOs.

	 We reviewed trainings IRCU delivered and found one training booklet that contained
   questionable content—a statement calling on political leaders to “advocate” for the passage
   of legislation “denouncing all forms of negative cultural practices”—that could be interpreted
   to support the bill. RIG/Pretoria made one recommendation to USAID/Uganda to determine
   and take appropriate action regarding this statement.

	 We reviewed meetings IRCU facilitated and found that none of the materials reviewed or
   interviews conducted indicated that IRCU was supporting the Anti-Homosexuality Bill
   through those meetings.

	 We obtained an understanding of how IRCU verifies that funds received are used only for
   activities described in the program’s approved work plans and found that none of the
   procedures performed indicated that IRCU was supporting the Anti-Homosexuality Bill.
   However, our procedures did indicate that salary expenses were billed to USAID improperly,
   and we did not include a detailed review of these outside activities in our scope.

The full results of our procedures appear in the following section, and the scope and
methodology appear in Appendix I. Management comments are included in their entirety in
Appendix II, and our evaluation of them is on page 8.




                                                                                               2 
 



REVIEW RESULTS
The agreed-upon procedures, procedures performed, and results are presented in the table that
follows.

    Agreed-upon Procedures              Procedures Performed                         Results
                               Work With Faith-Based Organizations (FBOs)

1. Obtain and review details       1. We obtained a list from IRCU       None of the annual work plans
   on the FBOs with which             of FBOs supported by award         reviewed or interviews or surveys
   IRCU has worked since              AID-617-A-10-00002. This list      conducted indicated that IRCU
   January 1, 2012                    had 37 organizations working       was supporting the Anti-
   (approximately 100).               with orphans and vulnerable        Homosexuality Bill through its
                                      children, 40 organizations         support of FBOs.
                                      working on HIV prevention,
                                      and 20 organizations working
                                      in care and treatment. (Some
                                      organizations implement more
                                      than one category of
                                      services.)

2. Based on the information        2. We determined that
   above, select a                    organizations focused on
   representative sample or           orphans and vulnerable
   FBOs and review the                children were the least likely
   annual work plans for any          to be engaged in activities that
   indication that the FBO            supported the Anti-
   planned to support                 Homosexuality Bill. Excluding
   Uganda’s Anti-                     these organizations, we
   Homosexuality Bill.                judgmentally selected 15 of
                                      the 60 remaining
                                      organizations (25 percent)
                                      and asked to see their annual
                                      work plans covering the
                                      period from October 1, 2011,
                                      to September 30, 2012. We
                                      reviewed these in detail for
                                      any indication that the FBO
                                      planned to support Uganda’s
                                      Anti-Homosexuality Bill.

3. Based on the information        3. Informed by the review of the
   above, select a                    annual work plans, and with
   representative sample of           limited time for travel, we
   FBOs to survey and/or              interviewed representatives
   interview regarding USAID-         from 4 Kampala-based
   funded activities for any          organizations, 3 in and around
   indication that the FBO            Jinja, 1 in Kyetume, and a
   supported, or was asked to         religious leader with oversight
   support, Uganda’s Anti-            responsibility for
   Homosexuality Bill.                5 organizations (2 of which
                                      were included in the original
                                      selection of 15). We also sent


                                                                                                        3
 
 


    Agreed-upon Procedures             Procedures Performed                           Results
                                      e-mail surveys to the leaders
                                      of 10 organizations that we
                                      were unable to visit, although
                                      we got responses from only 2.

                                      In interviews and surveys we
                                      asked FBO representatives
                                      about the services offered,
                                      eligibility for those services,
                                      funding sources, political
                                      activities, their position on
                                      homosexuality, and the
                                      perception of IRCU and its
                                      members with respect to
                                      homosexuality.

                                                Training

4. Obtain and review details      4. We obtained a list of trainings    None of the training materials
   on trainings delivered by         delivered since January 1,         reviewed or interviews or surveys
   IRCU since January 1,             2012, which were billed (in        conducted indicated that IRCU
   2012, under Cooperative           whole or in part) to               was supporting the Anti-
   Agreement AID-617-A-10-           Cooperative Agreement AID-         Homosexuality Bill through the
   00002.                            617-A-10-00002. This list had      trainings that it facilitates, except
                                     196 trainings.                     for one training booklet that had
                                                                        questionable content.
5. Based on the information       5. Based on the descriptions
   above, select a                   provided, we eliminated            In mid-2012 IRCU trained people
   representative sample of          trainings that focused on          from interfaith networks operating
   training materials to review      lower-risk activities (e.g.,       at the district level on HIV/AIDS
   for any indication that lRCU      orphans and vulnerable             and the role of religious leaders
   had used the training to          children, prevention of            in disease prevention, in addition
   support Uganda’s Anti-            mother-to-child transmission,      to other topics. As part of this
   Homosexuality Bill.               and data management). From         training, IRCU distributed a
                                     the remaining 45 trainings, we     booklet called Elimination of
                                     selected 10 (22 percent) and       Mother to Child Transmission of
                                     asked for copies of training       HIV (EMTCT): A Social
                                     materials, reports, and            Mobilization Handbook for
                                     participant lists. We reviewed     Leaders 2012. This booklet
                                     these documents in detail for      included a statement that one of
                                     any indication that IRCU had       the roles of political leaders is to
                                     used the training to support       “Advocate for the implementation
                                     Uganda’s Anti-Homosexuality        of the parliament ACT
                                     Bill.                              denouncing all forms of negative
                                                                        cultural practices, sensitize
6. Based on the information       6. We surveyed 20 participants        population and enact law. ”
   above, select a                   by e-mail from trainings           Based on the review of additional
   representative sample of          containing subjects potentially    EMTCT documents, we
   training attendees to survey      lending themselves to              acknowledge that this statement
   and/or interview regarding        discussion of the Anti-            likely refers to the Marriage and
   training content for any          Homosexuality Bill (e.g., most-    Divorce Bill, which was defeated
   indication that lRCU had          at-risk populations and            in early 2013 and would have
   used the training to support      advocacy). However, we were        outlawed a number of traditional
   Uganda's Anti-                    limited in our ability to sample   practices, such as demanding
   Homosexuality Bill.               because not all participants       refund of money the groom’s

                                                                                                           4
 
 


    Agreed-upon Procedures            Procedures Performed                           Results
                                     had provided a valid e-mail       family paid the bride’s family in
                                     address. In total, we received    case of divorce.
                                     only three responses.
                                                                       Ugandans surveyed did not
                                     Since FBO representatives         immediately draw a connection
                                     are the primary audience for      between the statement and the
                                     IRCU trainings, instead of        Anti-Homosexuality Bill, but upon
                                     conducting separate               inquiry conceded that the
                                     interviews or surveys with        statement could be construed as
                                     training participants, we         support for the bill.
                                     interviewed the FBO
                                     representatives about IRCU        While the booklet was produced
                                     trainings during the meetings     by the AIDS Control Program
                                     conducted under Step 3.           within the Ugandan Ministry of
                                                                       Health and not paid for by
                                                                       USAID, it was distributed at a
                                                                       USAID-funded training and
                                                                       therefore appeared to be
                                                                       supported by USAID. As a result,
                                                                       we make the following
                                                                       recommendation.

                                                                       Recommendation 1. We
                                                                       recommend that USAID/Uganda
                                                                       take appropriate action regarding
                                                                       the statement contained in the
                                                                       training material for the Inter-
                                                                       Religious Council of Uganda’s
                                                                       district interfaith networks and
                                                                       document the results.

                                               Meetings

7. Obtain and review details      7. We obtained a list from IRCU      None of the materials reviewed
   about meetings facilitated        of meetings facilitated since     or interviews conducted indicated
   by IRCU since January I,          January 1, 2012, that were        that IRCU was supporting the
   2012, under Cooperative           billed (in whole or in part) to   Anti-Homosexuality Bill through
   Agreement AID-617-A-10-           Cooperative Agreement AID-        the meetings that it facilitates.
   00002.                            617-A-10-00002. This list had
                                     50 meetings, which covered
                                     proceedings such as meetings
                                     of IRCU’s finance committee
                                     and debriefings with the
                                     Ministry of Health.

8. Based on the information       8. Based on the descriptions
   above, select a                   provided, we eliminated
   representative sample of          meetings that focused on
   meeting agendas and               lower-risk activities (e.g.,
   minutes to review for any         human resources and team
   indication that IRCU had          building within IRCU). From
   used the training to support      the remaining 37 meetings,
   Uganda’s Anti-                    we selected 5 (14 percent)
   Homosexuality Bill.               and asked for copies of
                                     meeting materials and

                                                                                                           5
 
 


    Agreed-upon Procedures              Procedures Performed                          Results
                                       participant lists. We reviewed
                                       these documents in detail for
                                       any indication that IRCU had
                                       used the meeting to support
                                       Uganda’s Anti-Homosexuality
                                       Bill.

9. Based on the information        9. Since FBO representatives
   above, select a                    are frequent participants in
   representative sample of           IRCU meetings, instead of
   meeting attendees to survey        conducting separate
   and/or interview regarding         interviews or surveys with
   meeting content for any            meeting attendees, we
   indication that IRCU had           interviewed the FBO
   used the training to support       representatives about IRCU
   Uganda’s Anti-                     meetings during the meetings
   Homosexuality Bill.                conducted under Step 3.

                                             Other Activities

10. Obtain an understanding of     10. To obtain an understanding of     None of the procedures
    how IRCU ensures that              how IRCU ensures that funds       performed indicated that IRCU
    funds received under               received are used for their       was supporting the Anti-
    Cooperative Agreement              approved purposes, we             Homosexuality Bill. However,
    AID-617-A-10-00002 are             conducted interviews with         during our review we noted the
    used only for activities           IRCU finance staff and            following unrelated issue:
    described in the program’s         reviewed the IRCU finance
    approved work plans.               manual.                           In reviewing the expenses
                                                                         charged to USAID for the IRCU
11. Based on the information       11. We reviewed the approved          Secretary General’s salary, we
    above, develop procedures          budgets for Cooperative           noted that these expenses were
    to determine whether funds         Agreement AID-617-A-10-           not charged according to the time
    expended after January 1,          00002 for fiscal years 2012       sheets that he had completed, as
    2012, were used for                and 2013. From these              required by Office of
    purposes other than which          budgets, we made inquiries        Management and Budget
    they were approved, and, if        about the types of activities     Circular A-122. For example, in
    so, whether those activities       under certain line items. Using   January 2012 IRCU charged
    were used to support               this information, we asked for    85 percent of the Secretary
    Uganda’s Anti-                     details on the actual expenses    General’s salary to USAID.
    Homosexuality Bill.                charged to USAID as staff         Meanwhile, time sheets show
                                       salaries and IRCU                 that he spent only 60 percent of
                                       promotional activities.           his time on USAID activities.

                                       Staff Salaries: For selected      This lapse in financial controls
                                       months in 2012, we compared       means that USAID is paying for
                                       the salary expenses charged       IRCU activities that are outside
                                       to USAID for the IRCU             the scope of its agreement with
                                       Secretary General with the        the Agency. While we saw no
                                       time sheets recording the         indication that this time had been
                                       actual hours worked on the        used to support the Anti-
                                       USAID-funded project.             Homosexuality Bill, our
                                                                         procedures did not include a
                                       IRCU Promotional Activities:      detailed review of these outside
                                       We reviewed the list of           activities. For example, the
                                       expenses from this category       Secretary General’s time sheets

                                                                                                          6
 
 


    Agreed-upon Procedures    Procedures Performed                           Results
                             charged to USAID for              indicated that he also spent time
                             anomalies. We also reviewed       on activities for the Uganda AIDS
                             support for selected              Commission, a gender-based
                             expenses; for example, we         violence program, and the
                             asked to see booklets             Religions for Peace program, to
                             containing “best practices” for   name a few. We did not review
                             any indication that the           these programs’ materials.
                             materials were used to
                             support Uganda’s Anti-            This matter was referred to
                             Homosexuality Bill.               IRCU’s financial auditors, whose
                                                               fieldwork was scheduled to begin
                                                               in May 2013. RIG/Pretoria will
                                                               review their audit report as part
                                                               of its standard nonfederal audit
                                                               process to make sure that
                                                               questioned costs have been
                                                               identified.




                                                                                               7
 
 



EVALUATION OF MANAGEMENT
COMMENTS
In its comments, the mission said the statement in question was ambiguous and that
homosexuality was not overtly mentioned. Furthermore, the mission believed that removing or
revising the statement could negate the positive intent of the authors regarding harmful cultural
practices and possibly lead to other unintended consequences. Therefore, the mission
requested that we remove the recommendation from the final report.

In our opinion, the vague wording of the statement, which the mission conceded, warranted the
recommendation. However, that ambiguity led us to give the mission discretion in implementing
the recommendation through whatever action it considered appropriate. As evidenced in its
response, the mission undertook a careful, reasoned assessment of the statement, which was
the intent of the recommendation, and made a corresponding determination that no corrective
measures are necessary. Based on these comments, we acknowledge that a management
decision has been made on Recommendation 1. No further action is required.

The mission also asked that the report be considered Sensitive but Unclassified, which meant
that it would not be posted on the external OIG Web site. We considered the mission’s request
against the criteria outlined in Volume 12 of the U.S. Department of State Foreign Affairs
Manual, section 541 (12 FAM 541) and the definition of Sensitive but Unclassified information
contained in ADS 545, “Information Systems Security.” Although the report addresses a
controversial topic in Uganda, it does not contain any additional information that if released
could cause harm or unfair treatment to an individual or group.




                                                                                               8
 
                                                                                    Appendix I
 


SCOPE AND METHODOLOGY 
Scope
The engagement to apply agreed-upon procedures was performed in accordance with
attestation standards established by the American Institute of Certified Public Accountants and
Government Auditing Standards issued by the U.S. Comptroller General.

The purpose of this review was to determine whether IRCU used PEPFAR funds to support
Uganda’s Anti-Homosexuality Bill. USAID/Uganda and RIG/Pretoria agreed to limit the scope of
the review to funds expended since January 1, 2012, under Cooperative Agreement AID-617-A-
10-00002, totaling $9.9 million. We performed this review from May 6 through May 14, 2013,
conducting fieldwork at USAID/Uganda and implementing partner offices in and around the
cities of Kampala and Jinja.

Methodology 

RIG/Pretoria and USAID/Uganda officials agreed on the procedures to be performed prior to the
start of fieldwork. They included review of USAID-funded activities since January 1, 2012.
Specifically, we judgmentally sampled IRCU’s work with FBOs, trainings, and meetings. We
also reviewed IRCU’s processes for ensuring that funds received from USAID were used only
for approved activities. We agreed to make recommendations to correct issues identified, as
applicable. These procedures are described in detail in the results section on page 3.
 

 

 
 

 

 

 

 

 

 

 



                                                                                             9
 
                                                                                                Appendix II



MANAGEMENT COMMENTS 



DATE:           September 4, 2013 

TO:             Robert W. Mason, Regional Inspector General/Pretoria 

FROM:           Leslie Reed, Mission Director, USAID/Uganda /s/ 

SUBJECT:        Management Decision – Agreed‐Upon Procedures Review of USAID Resources    
                Managed by Inter‐Religious Council of Uganda Under Cooperative Agreement AID‐617‐
                A‐10‐00002 (Report No. 4‐617‐13‐00X‐S) 

The purpose of this memorandum is to communicate USAID/Uganda’s Management Decision regarding 
Recommendation No. 1in the subject report. 

Recommendation No. 1:  We recommend that USAID/Uganda take appropriate action regarding the 
political statement contained in the training material for the Inter‐Religious Council of Uganda’s district 
interfaith networks and document the results. 

Management Decision:  The booklet titled Elimination of Mother to Child Transmission of HIV (EMTCT): 
A Social Mobilization Handbook for Leaders 2012 is a publication of the Uganda Ministry of Health 
(MOH), designed to guide MOH partners in rolling out activities to eliminate HIV transmission from 
mothers to their un‐born children. The political statement refers to cultural practices that impede 
prevention of HIV transmission and perpetuate gender violence. Homosexuality is not overtly 
mentioned, and our understanding is that it was not implicitly targeted through this statement. While a 
person could draw such inferences, given the ambiguous nature of the language, the Mission believes 
that requesting removal or revision of this statement could discount the original intention of the authors 
to advocate against cultural practices such as female genital mutilation, widow inheritance, widow 
cleansing, early marriages especially for girls, ritual circumcision, mandatory breastfeeding, male 
chauvinism, polygamy, scarification, wife sharing/exchange and other forms of gender violence.  In 
addition, it might have the unintended consequence of unnecessarily raising this issue and inflaming 
tension among Ugandans. We therefore respectfully request removal of this recommendation. 

Lastly, the Mission Director recommends that the report be made SBU.    




                                                                                                          10
 
 




    U.S. Agency for International Development 

           Office of Inspector General 

          1300 Pennsylvania Avenue, NW 

              Washington, DC 20523 

                Tel: 202-712-1150 

                Fax: 202-216-3047 

               http://oig.usaid.gov



 
